     UNITED STATES DEPARTMENT OF AGRICULTURE
               OFFICE OF INSPECTOR GENERAL

                   Washington D.C. 20250


                                    U.S. Department of Agriculture

                                           Office of Inspector General
                                                       Midwest Region




              Audit Report

Animal and Plant Health Inspection Service
           Controls Over Permits
      To Import Biohazardous Materials
           Into the United States




                                               Report No. 33601-4-Ch
                                               MARCH 2003
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


DATE:          March 31, 2003

REPLY TO
ATTN OF:       33601-4-Ch

SUBJECT:       Controls Over Permits To Import Biohazardous Materials Into The United States

TO:            Bobby R. Acord
               Administrator
               Animal and Plant Health Inspection Service


This report presents the results of our audit of the Animal and Plant Health Inspection Service’s
(APHIS) controls and procedures over the issuance and monitoring of permits to import
regulated pathogens and other materials into the United States. Our primary emphasis in this
audit has been to evaluate the agency’s controls to ensure that permits are issued only to
legitimate users; to safeguard permits, mailing labels, and other related materials associated with
the importation of regulated materials; to monitor and track the status of active permits; and to
safeguard against the entry of illegal or unauthorized materials in permit packages entering the
country.

The APHIS response to the official draft report is included as exhibit A, with excerpts and the
Office of Inspector General’s position incorporated into the Findings and Recommendations
section of the report. Based on the response, we have reached management decisions on
Recommendations Nos. 5, 6, 8, 9, and 10. Please follow your agency’s internal procedures in
forwarding documentation for final action to the office of the Chief Financial Officer.

Management decisions have not yet been reached on Recommendations Nos. 1, 2, 3, 4, and 7.
Management decisions can be reached on these recommendations once you have provided the
additional information outlined in the report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please provide a reply within 60 days
describing the corrective actions taken and planned, including timeframes for their
implementation. Please note that the regulation requires that management decisions be reached
on all recommendations within a maximum of 6 months of report issuance.



   /s/
RICHARD D. LONG
Assistant Inspector General
 for Audit
Executive Summary
Controls Over Permits To Import Biohazardous Materials into the United States
Audit Report No. 33601-4-Ch

Results in Brief    This audit report presents the results of our audit of APHIS’ permit systems
                    for the importation and interstate transfer of regulated materials. APHIS
                    issues permits to colleges, universities, public and private laboratories, and
                    others who wish to import regulated materials, for research and diagnostic
                    work. Permits are issued by two APHIS divisions: Plant Protection and
                    Quarantine (PPQ), which administers permits for plant-related materials, and
                    Veterinary Services (VS), which administers permits for animal-related
                    materials.

                    Our objective was to determine whether APHIS’ controls were adequate to
                    ensure that its permits could not be misused by individuals seeking to import
                    potentially harmful materials into the United States.

                    We found that although APHIS had reported to the Deputy Secretary in
                    October 2001 that it was quickly addressing identified security concerns with
                    its permit systems, many corrective actions still have not been taken. Such
                    areas include the need for better accountability over permits and increased
                    safeguards.

                    APHIS’ permit system manifests three weaknesses:

                    Better Selection Criteria is Needed for Onsite Inspections of Applicants.
                    APHIS does not always perform inspections of new applicants for import
                    permits. Although both PPQ and VS have instituted improved inspection
                    procedures following the September 11 attacks, neither division has
                    developed risk-based criteria to determine which applicants need to be
                    inspected.

                    Permits Are Not Adequately Tracked. PPQ needs to make improvements in
                    its computerized system for tracking the status of active and pending permits.
                    The current system does not automatically flag permits that have expired or
                    are about to expire, and it does not incorporate controls to ensure that
                    personnel input complete information on new permits.

                    Permit Documents Are Not Accountable. Neither PPQ nor VS requires
                    accountable documentation to accompany shipments of permitted materials, [

                                                  ].

                    Finally, we found that neither PPQ nor VS [                             ] to
                    ensure that regulated materials imported under permit are properly disposed

USDA/OIG-Audit No. 33601-4-Ch                                                                    i
                    of when the permit expires. As a result, the agency would have little control
                    over the distribution and use of materials imported under APHIS permit
                    following the expiration of the permits.

                    We consider the problems described in this report to be material internal
                    control weaknesses and, as such, should be included in the agency’s next
                    FMFIA report.

Recommendations
in Brief            We recommend that both PPQ and VS: (1) develop written procedures to
                    cover pre-approval and followup inspections of permit applicants;
                    (2) develop a system of accountable, sequentially numbered permit
                    documents and mailing labels which use bar-coded scanning technology to
                    allow them to both monitor incoming permit shipments and verify their
                    validity upon arrival at the ports-of-entry; (3) discontinue the practice of
                    allowing incoming passengers to hand-carry permit materials from the port of
                    entry; and (4) establish controls to ensure that permit-holders properly
                    dispose of imported hazardous materials when their permits expire. Finally,
                    we recommend that PPQ institute new controls and procedures to ensure that
                    its permit tracking system contains complete information on all permit-
                    holders.

Agency
Response            In their response to the official draft report, dated March 21, 2003, APHIS
                    officials generally agreed with the findings and recommendations as
                    presented. Actions on some of these recommendations have been completed,
                    while others are in process. In some cases, APHIS officials presented
                    alternative corrective actions to those that were recommended. Portions of
                    the APHIS response are incorporated into the Findings and Recommendations
                    section of the report. The full text of the response is included as exhibit A of
                    the audit report.

OIG Position        We generally agreed with APHIS’ responses to the recommendations,
                    although we disagreed with APHIS’ position on the need for pre-approval
                    inspections of applicants’ facilities. Based on the response to the official draft
                    report, we have reached management decisions on Recommendations Nos. 5,
                    6, 8, 9, 10, and 11. Management decisions have not yet been reached on
                    Recommendations Nos. 1, 2, 3, 4, and 7. Management decisions can be
                    reached on these recommendations once we receive the information specified
                    in the report sections OIG Position.




USDA/OIG-Audit No. 33601-4-Ch                                                                       ii
Table of Contents
EXECUTIVE SUMMARY ........................................................................................................ i
   Results in Brief .................................................................................................................... i
   Recommendations in Brief ................................................................................................. ii
   Agency Response .............................................................................................................. ii
   OIG Position ....................................................................................................................... ii

TABLE OF CONTENTS........................................................................................................ iii

BACKGROUND AND OBJECTIVES.....................................................................................1
   Background ........................................................................................................................1
   Objectives ..........................................................................................................................1
FINDINGS AND RECOMMENDATIONS ...............................................................................2
   Section 1: Memorandum to the Deputy Secretary........................................................2
       Finding No. 1:              APHIS Needs to Inform the Department of Known Vulnerabilities
                                   in the Permitting Systems .................................................................2

   Section 2: Controls Over the Permitting Process ........................................................5
       Finding No. 2:              APHIS Needs to Strengthen Its Inspections of
                                   Permit Applicants..............................................................................5

       Finding No. 3:              PPQ’s Joint Permit System Needs Improvement..............................8

   Section 3: Accountability Over Permit Documents....................................................11

       Finding No. 4:              APHIS Lacks Controls to Ensure That Only Approved Materials
                                   Enter the Country Under Permit......................................................11

       Finding No. 5:              APHIS Continues to Allow Hand-Carried Permit Material
                                   To Leave Ports-of-Entry..................................................................16

   Section 4: Monitoring of Material Disposal .................................................................18

       Finding No. 6:              APHIS Does Not Monitor Disposal of Materials
                                   Imported Under Permit ...................................................................18

SCOPE AND METHODOLOGY ..........................................................................................21

EXHIBIT A – APHIS’ Response to the Draft Report ................................................................... 22



USDA/OIG-Audit No. 33601-4-Ch                                                                                                            iii
Background and Objectives
Background          APHIS’ Plant Protection and Quarantine (PPQ) and Veterinary Services (VS)
                    units have separate permit systems for the importation or domestic transfer of
                    regulated materials. Each unit also maintains its own database for tracking
                    permits. The permit system for PPQ is the Joint Permit System (JPS) and the
                    system for VS is the Permit Issuance Tracking System (PITS).

                    Applicants for permits issued by either VS or PPQ may apply via fax, mail or
                    on-line. Under VS’ system, which covers specified animal-related products,
                    the applicant must state the exact nature of the item to be imported. Permits
                    are approved by a Veterinary Medical Officer (VMO) and are normally valid
                    for 1 year. Laboratories that require a permit from VS may also be required
                    to obtain a permit from the Centers for Disease Control (CDC), since some
                    animal pathogens are also a threat to humans. PPQ’s system, by contrast,
                    does not always show the exact nature of the material being imported. PPQ
                    permits may be valid for multi-year periods, and prior to September 11, 2001,
                    could be issued for the import of unknown pathogens for examination by
                    diagnostic laboratories.

                    OIG’s Southeast Region (SER) initiated a review of the APHIS permit
                    system following the September 11 terrorist attacks. PPQ officials informed
                    OIG that on September 21, 2001, they suspended issuance of new permits.
                    As a result, audit work was delayed pending implementation of corrective
                    actions.

Objectives          The objective of our audit was to determine whether APHIS’ controls were
                    adequate to ensure that its permits and mailing labels could not be misused by
                    individuals seeking to import regulated materials into the United States for
                    use as terrorist weapons against populations or the Nation’s food supply.

                    For this audit, we reviewed PPQ’s database containing 45,000 records of
                    permits and VS’ database containing 12,000 records of permits. For full
                    details of the scope of this audit, see the Scope and Methodology section.




USDA/OIG-Audit No. 33601-4-Ch                                                                   1
Findings and Recommendations
Section 1. Memorandum To The Deputy Secretary

Finding No. 1       APHIS Needs to Inform the Department of Known Vulnerabilities
                    in the Permitting Systems

                    APHIS reported to the Deputy Secretary in October 2001 that it had ceased
                    issuing new import permits pending the completion of an ongoing review of
                    the agency’s existing systems, and that the agency was quickly addressing
                    vulnerabilities noted in this review. However, we found that APHIS [
                                                                                          ] October
                    2001 memorandum [                   ]. As noted in later findings in this report,
                    the use of these systems [
                                          ].

                    On October 4, 2001, APHIS’ Acting Administrator issued an Informational
                    Memorandum to the Deputy Secretary, through the Under Secretary for
                    Marketing and Regulatory Programs. This Memorandum was issued as a
                    result of the terrorist attacks on September 11, 2001. The memorandum
                    stated that APHIS’ permitting procedures for importing regulated materials
                    were being reviewed, especially for the potential for misuse of the systems.
                    It further stated that while the ongoing reviews were pending, APHIS had
                    ceased the issuance of new permits to any non-Federal entity.

                    This memorandum listed a number of corrective actions needed to provide
                    reasonable assurance that the PPQ and VS permit programs could not be
                    improperly used. Because the two permit programs are separate and distinct
                    from one another, different types of corrective actions were identified for
                    each.

                     Both PPQ and VS officials have been working on corrective measures to
                     address these weaknesses since beginning their review process prior to the
                     issuance of the Informational Memorandum. However, as noted in Findings
                     Nos. 2 through 6 of the report, many serious concerns remain. For instance:

                     •   PPQ’s plans to identify and possibly revoke blanket permits issued to
                         diagnostic laboratories were not fully implemented as of the time of our
                         review because PPQ’s JPS tracking system could not reliably identify
                         these permits. (See Finding No. 2.)

                     •   The use of tamper-proof paper and a bar code tracking system for
                         incoming shipments has not been implemented.

                     •   The redesign of PPQ’s Joint Permit Tracking (JPS) system has not been
                         performed, and our audit revealed significant weaknesses in the system
                         (See Finding No. 3.)

USDA/OIG-Audit No. 33601-4-Ch                                                                      2
                     •   Followup inspections of facilities have not been implemented to ensure
                         that previously imported materials are being properly disposed of
                         following permit expiration. (See Finding No. 6.)

                    The Informational Memorandum to the Deputy Secretary indicated that PPQ
                    and VS would maintain their moratoriums on the issuance of new permits
                    until at least the most critical security concerns had been addressed. As noted
                    above and in the other findings of this report, we do not believe that APHIS
                    has satisfactorily addressed these concerns; in addition, our audit disclosed
                    areas of concern that were not brought out in the memorandum.

                    Despite this, the moratoriums announced in the memorandum were of short
                    duration, and both divisions had fully resumed issuances of new permits by
                    mid-December 2001. Our audit disclosed that even if the moratoriums had
                    continued, equally serious security concerns would remain with respect to
                    existing permits. Until these concerns are addressed, both PPQ’s and VS’
                    permit systems remain vulnerable to the type of misuse cited in the
                    memorandum.

                    In interviews with PPQ and VS officials, we found that no further
                    memorandums or briefings had been provided to Departmental officials since
                    the Informational Memorandum of October 4, 2001. Because of the ongoing
                    possibility that the import permit systems could be misused, we believe it
                    vital that the agency immediately establish timeframes to implement the
                    planned corrective actions.

Recommendation
No. 1               Immediately establish appropriate timeframes for the implementation of the
                    corrective actions outlined in the October 4, 2001, memorandum addressed to
                    the Deputy Secretary.

                    Agency Response.

                    In the agency’s response dated March 21, 2003, PPQ and VS each provided
                    their own responses to the recommendation that addressed the corrective
                    actions applicable to each in the Informational Memorandum to the Deputy
                    Secretary.

                    PPQ’s section of the Informational Memorandum listed eight corrective
                    actions that needed to be taken to provide safeguards against the misuse of the
                    permit system. The agency’s response to the draft report provided the status
                    of each of these, stating that corrective actions had been accomplished on five
                    of the cited actions and that timeframes had now been worked out for
                    completing the remaining three. The actions cited as having been completed
                    included the basing of future permit decisions on risk assessments and the
                    lifting of the moratorium on new permit issuances.

USDA/OIG-Audit No. 33601-4-Ch                                                                    3
                    VS’ section of the informational memorandum cited three corrective actions
                    that needed to be taken. These included assessing the frequency with which
                    multiple shipments entered the United States under individual permits, and
                    increasing the frequency of inspections. VS’ response, like PPQ’s indicated
                    that timeframes had been established for any actions that had not actually
                    been completed.

                    OIG Position.

                    Although we agree that several of the actions proposed in the Informational
                    Memorandum to the Deputy Secretary have been taken, others still require
                    additional review by the agency. Two of the eight actions proposed by PPQ
                    and one of the three proposed by VS are dependent upon the implementation
                    of the new computer-based permit tracking system (ePermits). These include
                    the redesign of PPQ’s existing tracking system and the more stringent
                    protocols for tracking and reporting which PPQ intended to implement. VS,
                    after attempting to perform the cited study of incoming permits, also
                    concluded that this would not be feasible until the new system was in place.

                    In particular, we noted one item from PPQ’s response that still needs to be
                    addressed. The Informational Memorandum stated that all future permit
                    decisions would be based on risk assessments, and the response to the draft
                    report stated that this is now being done. However, as noted in the OIG
                    Position section of Recommendation No. 2, we do not believe that PPQ has in
                    fact developed an adequate risk-based system for scheduling inspections.
                    This same concern applies to VS, even though this area was not one of the
                    corrective actions identified in VS’ section of the Memorandum.

                    To reach a management decision on this recommendation, APHIS will need
                    to provide an additional response that addresses the concerns reflected in the
                    OIG Position section of Recommendations Nos. 2 and 3, including
                    timeframes for implementation.




USDA/OIG-Audit No. 33601-4-Ch                                                                   4
Section 2. Controls Over The Permitting Process

                  PPQ and VS need to improve their controls and procedures for issuing and
                  tracking permits for importation of regulated materials. PPQ and VS do not
                  always inspect applicants’ facilities prior to permit issuance, and the inspections
                  they do make are geared toward evaluating applicants’ containment facilities
                  rather than determining whether the applicant is a legitimate user. In addition,
                  PPQ’s Joint Permit System needs to be improved to allow adequate tracking of
                  existing permits.


Finding No. 2     APHIS Needs To Strengthen Its Inspections Of Permit Applicants

                  APHIS does not always inspect applicants’ facilities before issuing import
                  permits. Although both PPQ and VS officials stated that they have strengthened
                  their procedures since the issuance of the Informational Memorandum to the
                  Deputy Secretary on October 4, 2001, the current pre-approval inspections
                  performed by VS and PPQ do not address the memorandum’s stated goal of
                  reducing the potential for deliberate misuse of the permit programs. The
                  inspection process is inadequate because most of the new procedures are not in
                  writing, and do not provide guidance on risk assessments to help personnel
                  select applicants for inspection. As a result, APHIS’ inspection systems are
                  based on the assumption that permit applicants are legitimate users, and the
                  methods of selecting applicants for inspection provide few barriers against those
                  who would exploit the VS and PPQ systems by submitting false information.

                  Current regulations do not require APHIS to inspect the facilities of applicants
                  for new permits prior to issuance. However, in APHIS’ Informational
                  Memorandum to the Deputy Secretary, agency officials acknowledged the need
                  to provide safeguards to address the potential for misuse of their permitting
                  programs. PPQ officials stated in the memorandum that all future permit
                  decisions would be based on risk assessments and that criteria were being
                  developed to determine the level of risk to be applied to each application. VS
                  officials, while stating their belief that their permit system already incorporated
                  significant safeguards, also cited the need to improve the frequency of
                  laboratory inspections.

                  Plant Protection and Quarantine

                  PPQ officials stated that prior to the events of September 11, 2001, it was
                  common practice to issue permits without performing an inspection of the
                  applicant’s facilities. Since then, PPQ officials have attempted to establish new
                  inspection procedures and trained PPQ officers to conduct inspections. When
                  we began our audit in March 2002, PPQ officials stated that these inspectors
                  would be used to perform inspections of existing permit holders whose facilities
                  had never been inspected, with special emphasis given to certain types of

USDA/OIG-Audit No. 33601-4-Ch                                                                      5
                                permits. PPQ’s goal was to inspect, prior to permit issuance, all new applicants
                                whose permits would require containment facilities. Eventually, PPQ officials
                                decided to only perform inspections of pre-September 11 permits-holders who
                                applied for renewals of their permits.

                                Since this time approximately 2,500 new permits have been issued by PPQ. Our
                                review of a sample of permits showed that only a minimal number were
                                inspected.

                                Veterinary Services

                                VS issues permits only for animal pathogens requiring containment facilities of
                                BL-21 level or higher. However, like PPQ, they do not inspect all applicants as
                                part of the permitting process. VS makes inspection decisions on a case-by-case
                                basis, using factors which include [
                                   ]. VS officials stated that the existence of previous inspection reports from
                                an applicant’s facility was not necessarily a determining factor in whether an
                                inspection on a new application would be performed. The officials explained
                                that within the same laboratory, a new application may call for containment
                                equipment that is different from the equipment being used for materials
                                imported under a prior permit, even though the pathogens or pests imported
                                under the two permits might be of the same BL-rating. Based on the inspection
                                decisions made by VS officials, one facility might be inspected twice in
                                conjunction with two permits issued over a relatively short period of time, while
                                other facilities might receive permits without being inspected.

                                Neither PPQ nor VS has developed written risk assessment procedures to assist
                                their personnel to determine when an inspection is needed. Thus, personnel of
                                both units decide whether or not to perform inspections based [
                                                                                  ].

                                The October 4 Informational Memorandum to the Deputy Secretary notes that
                                although there have been no known cases of abuse, the system is potentially
                                vulnerable to misuse. The memorandum further notes that the actions it outlines
                                are intended primarily to safeguard the system against such misuse. We
                                therefore concluded that the corrective actions implemented by both PPQ and
                                VS must incorporate safeguards against program abuse by those who would
                                apply for permits under false pretenses.

                                When assessing whether an inspection should be made, APHIS needs to take
                                into account whether the applicant has ever been visited either by APHIS
                                personnel or by personnel of another agency such as the Centers for Disease
                                Control (CDC). Permit applicants who have never been visited by APHIS or
                                another agency (including such applicants who are already permit holders),

1
  Biosafety Level (BL) rating, described in Health and Human Services’ (HHS) Biosafety Handbook. Biosafety levels are rated from BL-1, for
organisms that generally do not cause disease in humans, to BL-4, for high-risk, life-threatening diseases.


USDA/OIG-Audit No. 33601-4-Ch                                                                                                                6
                    should be inspected before new permits are issued. In addition, we believe that
                    both PPQ and VS officials need to establish written policies and procedures to
                    govern their inspection programs to ensure uniform and consistent treatment of
                    new applicants.

Recommendation
No. 2          Develop written procedures governing the inspection of facilities for both PPQ’s
               and VS’ permit systems, including any risk-related criteria that would exclude a
               facility from being inspected.

                    Agency Response.

                    In their response to the official draft report, dated March 21, 2003, APHIS
                    officials stated that they are using criteria for determining whether or not to
                    perform inspections of applicants’ facilities. The procedures cited by both PPQ
                    and VS for selecting applicants to be visited are based on an assessment of the
                    level of risk associated with the pathogen or other organism being imported.

                    OIG Position.

                    We continue to believe that both PPQ and VS need to include, as part of their
                    inspection operations each year, a number of onsite inspections to facilities that
                    have not been previously visited, regardless of the apparent risk level indicated
                    by the applications. To reach a management decision on this recommendation,
                    APHIS needs to provide us with a response that indicates that some random
                    inspections will be made to ensure that all facilities have a chance to be
                    inspected.

Recommendation
No. 3          Ensure that all permit applicants not previously inspected by APHIS are visited
               prior to permit issuance or renewal.

                    Agency Response.

                    PPQ officials responded that based on the criteria outlined in the response to
                    Recommendation No. 2, no new permits or permit renewals would be issued
                    until a facility that required an inspection had in fact been inspected. VS
                    officials stated that applicants wishing to import high consequence pathogens
                    and toxins of livestock agents are inspected prior to permit issuance. Applicants
                    for permit renewals are inspected every 3 years, and this language is contained
                    on the permits.

                    OIG Position.

                    A management decision cannot be reached until Recommendation No. 2 is
                    resolved.



USDA/OIG-Audit No. 33601-4-Ch                                                                       7
Finding No. 3     PPQ’s Joint Permit System Needs Improvement

                  PPQ’s Joint Permit System (JPS) does not contain data fields that would allow it
                  to [                             ]. Also PPQ personnel responsible for inputting
                  data to the system frequently omitted information needed to perform certain
                  types of potentially critical data sorting, and the system itself lacked features
                  that would have reduced the need for extensive manual reviews. PPQ officials
                  said the system was seen as adequate to the tasks it was intended to perform in
                  the past, when tracking permits was not given the high priority that it has since
                  acquired. Because of the system’s current inadequacies, PPQ [

                                                           ].

                  APHIS’ Informational Memorandum to the Deputy Secretary stated that PPQ’s
                  database would undergo a major redesign to allow for [
                                                                     ] of the pathogen. The memo
                  further stated that a waiver was being sought from the Office of the Chief
                  Information Officer to permit the system redesign.

                  PPQ maintains its JPS database to track information on permits issued for the
                  importation and interstate transport of regulated plant materials. The database
                  contains over 45,000 permits, with nearly 4,000 new permits having been issued
                  in FY 2001 alone. Over 2,400 import permits have been issued from October 1,
                  2001, to July 1, 2002.

                  PPQ officials stated that in the past, PPQ’s permit system was operated based on
                  a high level of trust between APHIS and its permit users. At that time (see
                  Finding No. 2) inspections of permit applicants were given less priority because
                  the type of materials imported under PPQ’s program were not regarded as highly
                  dangerous. For that same reason, PPQ permits were frequently issued to cover
                  multi-year periods.

                  The need for greater accountability over the permitting process has placed
                  increased demands upon the JPS. The JPS, however, has not met those
                  demands. In addition, users of the system have not employed its features
                  efficiently and key data fields are often left blank when information on new
                  permits is being input. Consequently, the system cannot be used to reliably
                  identify or sort data as needed.

                  Among the conditions we noted are:

                  •   Database contains incomplete and inconsistent data;

                  •   Database does not identify [                     ];

USDA/OIG-Audit No. 33601-4-Ch                                                                    8
                    •   JPS system does not identify [                   ]; and

                    •   JPS does not contain facility inspection data.

                    To correct these deficiencies, PPQ intends to replace the JPS with a new system
                    called the “ePermits” database, which it plans to have in service by June 2003.
                    In the interim, PPQ needs to take steps to improve the effectiveness of the
                    existing system. These include timely updates and improved controls to ensure
                    that all critical data fields are being completed at the time new permits are input.

                    If feasible, upgrades to the existing JPS—such as providing the capability to flag
                    certain permits—would be beneficial. In addition, PPQ should explore the
                    possibility of having the current system reject input for new permits unless
                    certain specified data fields (such as the numerical identifiers for the main table
                    and subsidiary table) are completed.

Recommendation
No. 4          Develop procedures and controls to ensure that complete data on new permits is
               input to the system, and that information on the status of existing permits is
               timely updated.

                    Agency Response.

                    PPQ officials stated that they have added new elements to staff performance
                    plans to correct previous problems of incomplete data entry into the databases.
                    The element requires that all entries into the database be complete and adequate
                    with less than 3 percent omissions per year. The response also stated that the
                    Branch Chief now regularly performs reviews of database records on permits
                    and facilities. All discrepancies and omissions found in these reviews are
                    discussed with the responsible staff member.

                    OIG Position.

                    We concur with the proposed corrective action. To reach a management
                    decision, PPQ officials need to provide us with clarification on the type and
                    extent of the reviews being performed by management, and whether the
                    requirements for such reviews have been incorporated into PPQ’s written
                    procedures.

Recommendation
No. 5          Incorporate additional data elements into the JPS, as necessary, to provide PPQ
               with the ability to readily determine whether institutions have been inspected
               and to perform queries based on various data fields.




USDA/OIG-Audit No. 33601-4-Ch                                                                         9
                  Agency Response.

                  APHIS states that they will not incorporate additional data elements into JPS
                  because the database is obsolete and will be replaced by the “ePermit” system.
                  The contract for the “ePermit” system was awarded in December 2002, and
                  deployment of Release 1 is scheduled for June 2003. The new system will
                  incorporate elements that would correct the deficiencies noted in our finding.

                  OIG Position.

                  We accept APHIS’ management decision. Final action can be reached when the
                  agency provides the Office of the Chief Financial Officer (OCFO) with
                  documentation to show that the new system has been implemented.




USDA/OIG-Audit No. 33601-4-Ch                                                                10
Section 3. Accountability Over Permit Documents
                  APHIS needs to improve its accountability over shipments of permit materials
                  entering the United States. Neither PPQ nor VS requires [
                                                     ] incoming packages, and neither [
                         ] in place [
                                      ] that enter the country under any given permit. Neither
                  PPQ nor VS has adequate controls to ensure that incoming packages reach their
                  intended destination, and both continue to allow individuals to hand-carry
                  permit packages through the ports-of-entry. This lack of accountability and
                  control could leave both of APHIS’ permit systems open to misuse by
                  individuals or organizations.


Finding No. 4     APHIS Lacks Controls To Ensure That Only Approved Materials
                  Enter the Country Under Permit

                  Neither PPQ nor VS [

                                                                    ]. Such a system is lacking
                  because APHIS regulations and procedures do not require the use of accountable
                  permit forms or shipping labels [                                     ]. Also,
                  neither PPQ nor VS officials have provided PPQ inspectors at the ports with
                  access to the permit data contained in their respective automated tracking
                  systems.

                  APHIS’ Informational Memorandum to the Deputy Secretary, dated October 4,
                  2001, noted that among the corrective actions needed to address identified
                  weaknesses in the permit system were the redesign of PPQ’s existing permit
                  shipping labels, and a more stringent protocol/process for permitting based on
                  tracking, monitoring, reporting, and disposing of permitted material. VS did not
                  report any problems specifically related to inspecting and tracking incoming
                  permit materials.

                  Packages entering the United States under PPQ’s permit system can be routed
                  through any one of 15 Plant Inspection Stations located among the numerous
                  airports, seaports, border crossings, and mail facilities available to importers.
                  VS permits are not restricted to the plant inspection stations. PPQ’s inspectors
                  have the responsibility for examining all incoming permit packages and
                  determining whether they should be allowed to proceed to their destinations
                  within the U.S. However, different procedures are followed for the handling of
                  incoming PPQ and VS permit packages.




USDA/OIG-Audit No. 33601-4-Ch                                                                   11
                  PPQ Permit Packages

                  Packages containing PPQ permit materials are identified by a PPQ-issued
                  mailing label, of which there are two types. Due to the potentially hazardous
                  nature of the regulated materials associated with one type of label, PPQ
                  inspectors at the Plant Inspection Stations are required to verify that the package
                  is coming in under a valid and current permit, and that the address on the
                  mailing label corresponds with that of the registered permittee. However, the
                  PPQ inspectors have only limited means of verifying the validity of the permit,
                  none of which is fully reliable.

                     Onsite Permit Files. Each Plant Inspection Station maintains copies of
                     permits onsite, which PPQ inspectors can use to verify permit numbers
                     written on the labels of incoming permit shipments. If these numbers can be
                     matched, the inspector can verify that the permit is current and that the
                     mailing address on the package label corresponds to that shown on the permit
                     itself. However, PPQ officials acknowledge that these files are not
                     sufficiently complete or comprehensive for an inspector to conclude that an
                     incoming permit package is always valid.

                     Online Data. To address this situation, PPQ set up an internet website that
                     the stations could access, listing current permit numbers and other
                     information which PPQ officers at the stations could use to verify the permit
                     numbers on incoming packages. The internet site was fed from the JPS, so
                     that the information at the stations would theoretically be as comprehensive
                     as that in the database. However, we found that the information on the
                     website was not always correct or current. PPQ then took the internet site
                     offline.

                     Permittee contact. If a PPQ inspector cannot verify the validity of the permit
                     using the paper files, the only other recourse other than following up with
                     PPQ Headquarters is to contact the permittee using information provided in
                     any accompanying paperwork. However, there are no requirements that any
                     specific documentation (such as a copy of the permit or the permittee’s name)
                     be included with the shipment. Although in some cases the shipment may
                     include the name of a contact person and telephone number, this is likewise
                     not required.

                  According to PPQ officials, the mailing label used by PPQ to identify certain
                  permit packages has been used without alteration since 1992. Since it is not an
                  accountable document, there is no record of how many have been sent to various
                  permittees across the country over the past 10 years, and no assurance that the
                  scientists and laboratories receiving them have properly safeguarded them or
                  reported any that could not be accounted for.



USDA/OIG-Audit No. 33601-4-Ch                                                                     12
                  PPQ’s own earlier review disclosed this problem, as referenced in the
                  October 4, 2001, Informational Memorandum to the Deputy Secretary. The
                  memorandum proposed the redesign of the shipping labels using tamper-proof
                  paper and a bar-coded tracking system, such as that used with Phytosanitary
                  Certificates. Such a system would, if connected electronically to PPQ’s central
                  JPS database, allow PPQ officers at the inspection stations to immediately check
                  the validity of permit numbers displayed on the mailing labels, and to verify that
                  the address marked on the inner box of a permit shipment matches the address of
                  the permittee in APHIS’ database.

                  VS Permit Packages

                  As noted above, VS does not maintain a full-time presence at the ports-of-entry
                  and thus depends upon PPQ inspectors to inspect incoming VS permit
                  shipments. Unlike PPQ packages, those of VS are required to display a copy of
                  the permit itself on the outside of the package. This allows the PPQ officer to
                  immediately inspect the permit rather than having to locate it in a paper file. In
                  the October 4, 2001, Informational Memorandum to the Deputy Secretary, VS
                  did not cite any weaknesses had identified in relation to this aspect of its permit
                  system.

                  However, we noted that the VS system contains some of the same vulnerabilities
                  as PPQ’s, as well as others which are unique to it.

                  -      Like PPQ permit packages, those of VS are not sufficiently reviewed;

                  -      Unlike PPQ permit packages, those of VS can come into the United
                         States through any port of entry rather than being restricted to entering
                         through one of PPQ’s Plant Inspection Stations. (Since PPQ inspectors
                         are being transferred to the Department of Homeland Security, VS may
                         need to alter its existing policy and require its permit shipments to enter
                         through the Plant Inspection Stations, as do those of PPQ.) Thus, the
                         PPQ officer inspecting the VS package may be less familiar with the
                         permit process than his or her counterpart at a plant inspection station;

                  -      While the VS permit provides the PPQ inspector with immediate access
                         to information regarding the permittee, like the PPQ label it is not an
                         accountable document and could be susceptible to alteration or forgery;
                         and

                  -      PPQ officers at the ports-of-entry have [

                  -                                      ] information given on the permit affixed
                         to an incoming package.



USDA/OIG-Audit No. 33601-4-Ch                                                                     13
                     VS officials agreed that there could be areas of concern related to this system
                     and stated that they planned to use PPQ’s bar-coded tracking system and
                     tamper-proof labels when these become available.

                     The Deputy Administrator of PPQ agreed that this situation needed to be
                     addressed more quickly. He stated that while the full system of envisioned
                     changes could not be quickly implemented, the tamper-proof paper by itself
                     could. This would, at minimum, render the current mailing labels obsolete and
                     eliminate the value of any that are held by unauthorized parties.

                     We concluded the Department needs to place a higher priority on eliminating or
                     reducing the vulnerability of the permit systems to misuse. APHIS needs to
                     develop an automated system using accountable permit forms and labels, which
                     will allow inspectors at the ports-of-entry to quickly verify that incoming
                     packages bearing APHIS permit markings are in fact legitimate. In addition, the
                     system should allow APHIS Headquarters to maintain readily accessible records
                     to track and account for each shipment that enters the country under APHIS
                     permit.

Recommendation
No. 6          Establish reasonable timeframes for the development and implementation of a
               universal system to track PPQ and VS shipments that enter the country using
               bar-code technology with accountable labels and permit documents.

                     Agency Response.

                     VS and PPQ are working in conjunction on a new electronic permitting
                     “ePermit” system that would incorporate the elements referred to in the
                     recommendation, specifically the use of bar-coding to identify and track
                     shipping labels. The detailed work plan for system development is expected to
                     be completed by December 31, 2003, with the pilot project by December 2004.
                     The finalized system would be implemented and in place by December 31,
                     2005.

                     OIG Position.

                     We concur with APHIS’ management decision. Final action can be reached
                     when APHIS provides documentation to OCFO that the “ePermit” system has
                     been implemented.

Recommendation
No. 7          Institute procedures to ensure that the new system allows inspectors at the ports-
               of-entry to quickly and accurately check the validity of incoming permit
               shipments, and allows APHIS Headquarters to track the status of all issued



USDA/OIG-Audit No. 33601-4-Ch                                                                    14
                   labels. In addition, restrict the entry of VS packages to the plant inspection
                   stations.

                   Agency Response.

                   PPQ officials stated that the new “ePermit” system, which is expected to be fully
                   operational by December 31, 2005, would provide electronic access of permit
                   data to all personnel at the Plant Inspection Stations. VS officials stated they are
                   implementing procedures to ensure that the system will incorporate the ability
                   for inspectors at ports-of-entry to check the validity of incoming shipments, as
                   well as the ability of APHIS Headquarters to track the status of all incoming
                   labels. VS officials also stated that they are pursuing the feasibility of restricting
                   the ports-of-entry on permits issued for certain high-consequence pathogens.
                   This restriction would be in place by the end of fiscal year 2003.

                   OIG Position.

                   We concur with APHIS officials’ plans for implementing the “ePermit” system
                   at the Plant Inspection Stations. However, APHIS officials have not yet stated
                   whether incoming VS permit shipments would be required to pass through the
                   Plant Inspection Stations as PPQ shipments are, or whether the procedures
                   associated with them would be the same as for those of PPQ. To reach a
                   management decision, APHIS officials need to provide us with additional
                   information on their planned corrective actions in this area.

Recommendation
No. 8          Until the system cited in Recommendation No. 7 is implemented, develop
               interim measures to provide the needed controls over incoming permit
               shipments. These measures should include, but not be limited to, the adoption
               of tamper-proof paper as referenced in the Informational Memorandum to the
               Deputy Secretary.

                   Agency Response.

                   APHIS officials stated that they are redesigning their shipping label to
                   incorporate a new visual design, tamper-proof paper, and bar-coded tracking
                   technology. Although the bar-coding system will not be effective until the
                   “ePermit” system is operational at the end of 2005, APHIS officials stated that
                   new labels utilizing tamper-proof paper would be in use by the end of fiscal
                   year 2003.




USDA/OIG-Audit No. 33601-4-Ch                                                                         15
                  OIG Position.

                  We concur with APHIS’ management decision. To reach final action, APHIS
                  needs to provide OCFO with documentation that the new labels using tamper-
                  proof paper have replaced the existing labels.


Finding No. 5     APHIS Continues to Allow Hand-Carried Permit Material to Leave
                  Ports-of-Entry

                  Both PPQ and VS allow individuals to hand-carry incoming permit packages.
                  PPQ officials have stated that they cannot prohibit this practice without
                  changing the regulations, and while VS has disallowed hand carrying of certain
                  high-risk pathogens, it continues to allow this for other types of permits. In
                  addition, neither VS nor PPQ has any system to ensure that these hand-carried
                  packages reach their stated destination once they leave the port of entry.

                  Neither PPQ nor VS had clear regulations or instructions governing how or
                  when individuals may hand-carry permit materials into the country. Because
                  there is no system to track hand-carried materials, neither PPQ nor VS officials
                  could cite the number of cases in which permit materials are hand-carried
                  through ports-of-entry by incoming passengers. However, officials of both
                  acknowledge that this does occur.

                  As a result of our audit, PPQ and VS both issued guidance on the hand-carrying
                  of permit materials into the country. Although we concur with these restrictions,
                  we do not believe that they provide sufficient safeguards. PPQ officials stated,
                  however, that according to the Office of General Counsel, they have no further
                  authority to restrict the practice of hand-carrying permit packages without a
                  regulatory change.

                  APHIS’ Informational Memorandum to the Deputy Secretary, dated October 4,
                  2001, indicated the need for a “more stringent protocol/process for permitting
                  based on tracking, monitoring, reporting, and disposition of permit material…”
                  While the need for this was identified only by PPQ, we believe that in this area
                  it applies equally to both PPQ and VS. Because neither has a system to ensure
                  that the permit packages actually reach the recipients marked on the shipping
                  labels, the only way to provide assurance that this is done is to require that no
                  permit package be allowed to leave a port of entry except in the custody of a
                  recognized, bonded commercial carrier.

                  As a result, we believe that APHIS needs to take action as required to eliminate
                  this security risk, including changes in the applicable regulations if these are
                  determined to be necessary.



USDA/OIG-Audit No. 33601-4-Ch                                                                   16
Recommendation
No. 9          Take immediate steps, including regulatory change, to prohibit the practice of
               hand-carrying permit materials through ports-of-entry by incoming passengers.
               Further require that all permit packages leaving a port of entry do so in the
               custody of a bonded commercial carrier.

                    Agency Response.

                    Both PPQ and VS have issued new procedures to prohibit the hand-carrying of
                    permit packages from ports-of-entry where appropriate.

                    OIG Position.

                    We concur with APHIS’ management decision. To reach final action, the
                    agency needs to provide documentation of the above-referenced procedures to
                    OCFO.




USDA/OIG-Audit No. 33601-4-Ch                                                               17
Section 4. Monitoring of Material Disposal
Finding No. 6     APHIS Does Not Monitor the Disposal of Materials Imported Under
                  Permit

                  We found that although APHIS permits require the proper disposal of certain
                  regulated materials when the permits expire, neither PPQ nor VS followed up to
                  ensure that this was in fact being done. We attributed this in part to the lack of
                  written guidance, and also to the difficulty involved in identifying the expiration
                  date of PPQ permits in its JPS system. Neither PPQ nor VS required permittees
                  to certify compliance with this requirement, or performed onsite visits following
                  permit expiration. As a result, materials imported under APHIS permits could
                  remain on hand indefinitely at laboratories or storage facilities maintained by
                  former permittees.

                  Currently, APHIS does not have operating procedures in place regarding
                  disposal of permit materials upon the expiration of their import permits. As
                  noted in Finding No. 2, PPQ inspections are only performed as part of the permit
                  approval process; and although VS does perform followup visits, these only
                  occur when a permittee requests the renewal of an existing permit. Because in
                  such cases the permittee would retain the material acquired under the original
                  permit, no confirmation of disposition would be involved in such an inspection.

                  PPQ officials stated that they planned to send letters to permittees explaining
                  that the permitted materials must be destroyed upon expiration of their permits.
                  They also stated that they would monitor compliance through surprise visits to
                  laboratories with recently expired permits.

                  VS officials stated that they plan to expand their compliance inspections to
                  cover permittees who do not apply for renewal, but could not at that time
                  provide written procedures describing the process by which permittees would be
                  selected for compliance inspections. In addition, they could not provide us with
                  specific information on how disposal of permit materials are covered in these
                  inspections.

                  Because of the potential dangers associated with the unnecessary retention of
                  certain materials, we believe that APHIS needs to develop procedures to ensure
                  that they are disposed of in a timely manner. Both PPQ and VS should
                  document those materials covered under their permit programs whose risk level
                  requires disposition. In all such cases, the permit-holder should be required to
                  maintain records of the use and disposition of the imported material, and to
                  provide written certification to APHIS that the material has been disposed of
                  following permit expiration. To ensure compliance with this requirement,
                  APHIS needs to implement procedures to track expiration dates and follow up
                  with permittees if the required certifications are not timely received. Finally,
                  both PPQ and VS need to perform onsite inspections of permittees, at least on a

USDA/OIG-Audit No. 33601-4-Ch                                                                     18
                   random basis, to ensure that the above requirements are being complied with
                   and that all dangerous materials imported under APHIS permit are properly
                   disposed of.

Recommendation
No. 10         Institute procedures to require that holders of permits to import high-risk
               materials timely certify to APHIS that the imported agents have been properly
               disposed of when the permits expire.

                   Agency Response.

                   PPQ officials responded that they have instituted new procedures to inform
                   holders of expiring permits that they must maintain a valid permit as long as the
                   organisms governed by that permit are viable. The permits themselves now
                   contain language to hold permitees responsible for the disposition of the
                   organisms throughout the duration of the permit. PPQ must also be notified if
                   the permitee leaves the institution where the organism is being kept, and such
                   organisms must either be destroyed or transferred with PPQ concurrence to a
                   new permitee. Permittees are required to apply for a new permit within
                   2 months of expiration as long as the organism remains viable. Depending on
                   the level of risk of the organism, a PPQ officer may be asked to witness its
                   destruction.

                   VS officials stated that their permits only cover the importation or movement of
                   pathogens, as opposed to possession and use. However, under the Agricultural
                   Bioterrorism Protection Act of 2002, all facilities holding high-consequence
                   pathogens must register with APHIS or CDC as applicable. Approval or denial
                   of a facility’s application is based on the results of reviews performed by both
                   APHIS and the Department of Justice; these reviews would cover the official
                   responsible for the pathogen, the facility, and the individual who owns or
                   controls the facility. APHIS must be notified of all changes of ownership, and if
                   the facility intends to discontinue possessing, using, or transferring a particular
                   agent or toxin, APHIS must be notified within 5 business days prior to this
                   action so that APHIS has an opportunity to observe its destruction.

                   OIG Position.

                   Although the actions proposed by APHIS are somewhat different from those
                   recommended, we believe that they satisfactorily address the concerns raised in
                   the finding. As a result, we are reaching management decision on this
                   recommendation. Final action can be reached when APHIS provides written
                   documentation of these new procedures to OCFO.




USDA/OIG-Audit No. 33601-4-Ch                                                                      19
Recommendation
No. 11         Institute written procedures for performing followup inspections, including
               onsite visits to selected permittees, to ensure that permittees comply with the
               requirements for proper accounting and timely disposal of dangerous organisms
               imported under APHIS permits.

                    Agency Response.

                    PPQ officials stated that they are in the process of developing and implementing
                    procedures for conducting followup inspections of all facilities receiving high-
                    risk organisms under permit. The agency’s objective for 2003 is to implement a
                    system for conducting followup inspections, both announced and unannounced,
                    of all facilities currently holding permits. To accomplish this, PPQ has
                    requested four new specialist positions and one permit compliance officer in
                    PPQ Headquarters. Before the end of calendar year 2003, 25 additional field
                    inspectors will be trained to accomplish oversight duties.

                    VS officials responded that their followup procedures are in place and have been
                    implemented based on the requirements of 9 CFR Part 121, Agricultural
                    Bioterrorism Protection Act of 2002; Possession, Use, and Transfer of
                    Biological Agents and Toxins.

                    OIG Position.

                    We concur with APHIS’ management decision. Final action can be reached
                    when the agency provides documentation of the new procedures to OCFO.
                    Additionally, for final action, PPQ will need to provide documentation that the
                    new positions have been filled and the cited training of field inspectors has been
                    completed.




USDA/OIG-Audit No. 33601-4-Ch                                                                      20
Scope and Methodology
                  We performed our audit at APHIS Headquarters located in Riverdale, Maryland,
                  university laboratories in Chicago, Illinois, and West Lafayette, Indiana, and
                  Plant Inspection Stations at ports-of-entry in Miami, Florida, and New York,
                  New York. We performed our audit fieldwork from March through September
                  2002.

                  We performed analyses of the PPQ and VS permit databases. PPQ’s JPS
                  database contains over 45,000 records of permits for plant pests, plant
                  pathogens, and noxious weeds. VS’ PITS database contains over 12,000 records
                  with data on permits for animal products and pathogens. We analyzed these
                  databases using Accounting Code Language (ACL) software.

                  We selected two laboratories holding APHIS permits for review, based on the
                  risk level of their permitted materials and their proximity to the regional office.
                  We interviewed the permit holders at the laboratories and reviewed documents
                  associated with the permits.

                  We selected two ports-of-entry for review, based on the presence of Plant
                  Inspection Stations at the ports. We interviewed APHIS staff at the ports,
                  observed their inspection procedures, and reviewed documents associated with
                  processing and inspecting permitted shipments.

                  Where possible, we utilized results obtained by the Southeast Region’s Audit of
                  USDA-funded laboratories.

                  We conducted the audit in accordance with Government Auditing Standards
                  established by the Comptroller General of the United States.

                  To accomplish our audit objectives, we:

                  (1)    reviewed laws, regulations, policies, and procedures at APHIS
                         Headquarters in Riverdale, Maryland;

                  (2)    interviewed responsible APHIS personnel both at Headquarters and at
                         field locations;

                  (3)    analyzed the databases used by APHIS to store permit data; and

                  (4)    visited laboratories in Chicago, Illinois and West Lafayette, Indiana to
                         review procedures for permitted materials.




USDA/OIG-Audit No. 33601-4-Ch                                                                     21
Exhibit A
APHIS’ Response to the Draft Report




USDA/OIG-Audit No. 33601-4-Ch         22
USDA/OIG-Audit No. 33601-4-Ch   23
USDA/OIG-Audit No. 33601-4-Ch   24
USDA/OIG-Audit No. 33601-4-Ch   25
USDA/OIG-Audit No. 33601-4-Ch   26
USDA/OIG-Audit No. 33601-4-Ch   27
USDA/OIG-Audit No. 33601-4-Ch   28
USDA/OIG-Audit No. 33601-4-Ch   29
USDA/OIG-Audit No. 33601-4-Ch   30
USDA/OIG-Audit No. 33601-4-Ch   31
USDA/OIG-Audit No. 33601-4-Ch   32
USDA/OIG-Audit No. 33601-4-Ch   33
USDA/OIG-Audit No. 33601-4-Ch   34
USDA/OIG-Audit No. 33601-4-Ch   35
Informational copies of this report have been distributed to:

     General Accounting Office                                  (1)
     Office of the Chief Financial Officer
       Director, Planning and Accountability Division           (1)
